No. ______

In The

Supreme Court of the United States
_____

CITY OF BAKERSFIELD, AARON STRINGER,
Petitioners,
v.
LESLIE LARAY CRAWFORD,
Respondent.
_____
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
_____
PETITION FOR WRIT OF CERTIORARI
_____
Michael G. Marderosian
Heather S. Cohen
MARDEROSIAN & COHEN
1260 Fulton Street
Fresno, CA 93721
(559) 441-7991
mick@mcc-legal.com
heather@mcc-legal.com
Counsel for Petitioners
City of Bakersfield and Aaron Stringer
LEGAL PRINTERS

LLC

! Washington, DC ! 202-747-2400 ! legalprinters.com

i
QUESTION PRESENTED
The question presented is:
1.
Did the Ninth Circuit err when it held
that evidence of prior incidents which indicate that an
individual may be mentally ill could be introduced for
the purpose of determining whether an officer used
excessive force and/or was negligent even though
neither the officer nor his department had any prior
knowledge of such incidents.
This Court has carefully defined the analysis to
be undertaken when considering whether the use of
force, whether deadly or not, was “objectively
reasonable” under the Fourth Amendment. See e.g.,
Terry v. Ohio, 392 U.S. 1 (1968); Tennessee v. Garner,
471 U.S. 1, 7-12 (1985); Graham v. Connor, 490 U.S.
386, 397 (1989); Scott v. Harris, 550 U.S. 372, 381-85
(2007). Whether force is “objectively reasonable” is
based on the facts and circumstances confronting the
involved officer, without regard to the officer’s
underlying intent or motivation and must be judged
from the perspective of a reasonable officer on the
scene, rather than with the 20/20 vision of hindsight.
Based upon the framework that this Court
created, an appropriate analysis into the
reasonableness of the use of force included factors such
as (1) the nature of the crime or other circumstances
known to the officer at the time force was applied; (2)
whether the plaintiff/decedent posed an immediate
threat to the safety of the officer or to others; (3)

ii
whether the plaintiff/decedent was actively resisting
arrest or attempting to evade arrest; (4) the amount of
time the officer had to determine the type and amount
of force that reasonably appeared necessary; (5) the
type and amount of force used; (6) the availability of
alternative methods; (7) the number of lives at risk
and the parties’ relative culpability; (8) whether it as
practical for the officer to give warnings; and (9)
whether it should have been apparent to the officer
that the person he or she used force against was
emotionally disturbed. See e.g., Ninth Circuit Model
Jury Instruction No. 9.25; Third Circuit Model Jury
Instruction No. 4.9; Eighth Circuit Model Jury
Instruction No. 4.40.
In this case, the district court concluded that the
plaintiff could not testify about her observations of her
son on prior occasions during which her son had
displayed signs of mental illness because the involved
officer did not have any knowledge of her son’s conduct
on these occasions and as such, it was not relevant to
the issue of whether the force used by the defendant
officer was unreasonable and/or whether the defendant
officer was negligent.
This holding is entirely
consistent with the analysis that this Court
established in analyzing the use of force under the
Fourth Amendment.
In complete contravention to the parameters
that have been defined by the likes of Graham v.
Connor, 490 U.S. 386, 109 S. Ct. 1865 (1989), and its
progeny, the Ninth Circuit in this case concluded that
evidence about an individual’s behavior on other

iii
previous occasions was relevant to a jury’s analysis of
whether the officer knew or should have known that
the individual was purportedly mentally ill even
though the officer had no knowledge of these incidents.

iv
PARTIES TO THE PROCEEDING
The parties to the proceeding in the Ninth
circuit, whose judgment is sought to be reviewed are:
•

Leslie Laray Crawford (“Crawford”),
individually and as successor in interest to
decedent Michael Laray Dozer, plaintiff and
appellant below, and respondent here.

•

The City of Bakersfield (“City”) and Aaron
Stringer (“Stringer”), defendants and appellees
below, and petitioners here.

Michael Dozer, the decedent’s father, was
named as a nominal defendant but was not a party in
either the appeal to the Ninth Circuit or in regard to
this Petition.

v
RULE 29.6 STATEMENT
There are no corporations involved in this
proceeding.

vi
RELATED PROCEEDINGS
Petitioners are unaware of any proceedings
relating to the litigation giving rise to this Petition.

vii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . iv
RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . . . . . v
RELATED PROCEEDINGS . . . . . . . . . . . . . . . . . . vi
TABLE OF CONTENTS

. . . . . . . . . . . . . . . . . . . vii

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . x
PETITION FOR WRIT OF CERTIORARI . . . . . . 1
OPINION BELOW . . . . . . . . . . . . . . . . . . . . . . . . . 1
BASIS FOR JURISDICTION IN THIS COURT . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS AT ISSUE . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . 3
A.

INTRODUCTION . . . . . . . . . . . . . . . 3

B.

CONFRONTED WITH A MAN
WHO WAS TRYING TO KILL
HIM OR CAUSE HIM GREAT
BODILY INJURY, OFFICER
AARON STRINGER HAD NO
CHOICE BUT TO USE DEADLY
FORCE TO PROTECT HIMSELF
AND MEMBERS OF THE PUBLIC . . 5

C.

THE DISTRICT COURT
CORRECTLY PRECLUDED
THE DECEDENT’S MOTHER
FROM TESTIFYING ABOUT

viii
HOW MR. DOZER HAD BEHAVED
ON OTHER OCCASIONS, THOUGH
THERE WAS A PLETHORA OF
EVIDENCE FROM POLICE
PROCEDURES EXPERTS
ABOUT THE SIGNS OF MENTAL
ILLNESS AND WHAT A WELL
TRAINED POLICE OFFICER
SHOULD DO . . . . . . . . . . . . . . . . . . 9
D.

THE NINTH CIRCUIT REVERSED
THE LOWER COURT’S
DECISION . . . . . . . . . . . . . . . . . . . 12

REASONS THE PETITION SHOULD
BE GRANTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
A.

THE NINTH CIRCUIT’S DECISION
IS IN COMPLETE DISREGARD
OF GRAHAM V. CONNOR
AND ITS PROGENY AND
IMPROPERLY EXPANDS THE
SCOPE OF EVIDENCE THAT
SHOULD BE CONSIDERED
WHEN DETERMINING IF THE USE
OF FORCE BY A POLICE OFFICER
WAS EXCESSIVE OR EVEN
NEGLIGENT . . . . . . . . . . . . . . . . . . 13

B.

THE NINTH CIRCUIT HAS
CREATED AN IRRECONCILABLE
STANDARD WHEREIN A POLICE
OFFICER CANNOT INTRODUCE
EVIDENCE HE WAS UNAWARE
OF TO JUSTIFY HIS USE OF
FORCE BUT THE PLAINTIFF

ix
CAN USE SUCH INFORMATION
TO SHOW THE FORCE WAS
UNREASONABLE . . . . . . . . . . . . . . 16
C.

THERE IS A CONFLICT
AMONGST CIRCUITS
AS TO THE ADMISSIBILITY OF
EVIDENCE PERTAINING
TO AN INDIVIDUAL’S MENTAL
HEALTH . . . . . . . . . . . . . . . . . . . . . 19

D.

THIS QUESTION PRESENTED
IN THIS CASE IS RECURRING
AND IMPORTANT . . . . . . . . . . . . . 22

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
APPENDIX
Opinion, United States Court of Appeals . . . . . . 1a
United States District Court, Eastern
District of California’s Order Re
Defendants’ Motions in Limine No. 1 and 9 . . . 26a

x
TABLE OF AUTHORITIES
CASES
Bryan v. MacPherson, 630 F.3d 805
(9th Cir. 2010) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
City & Cty. of S.F. v. Sheehan, 575 U.S. 600
(2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Colter v. Reyes, 2017 U.S. Dist.
LEXIS 103617 (E.D. NY July 4, 2017) . . . . . . . . . 21
Drummond v. City of Anaheim, 343 F.3d 1052
(9th Cir. 2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
Frisone v. United States, 270 F.2d 401
(9th Cir. 1959) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Graham v. Connor, 490 U.S. 386 (1989) . . . . passim
Kisela v. Hughes, 138 S. Ct. 1148 (2018) . . . . . . . 23
Mullenix v. Luna, 136 S. Ct. 305 (2015) . . . . . . . . 4
Palmquist v. Selvik, 111 F.3d 1332
(7th Cir. 1997) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
Rascon v. Hardiman, 803 F.2d 269
(7th Cir. 1986) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Rubalcava v. City of Los Angeles, 64 F.3d 1323
(9th Cir. 1995) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

xi
Santos v. Gates, 287 F.3d 846 (9th Cir. 2002)

. . . 17

Scott v. Harris, 550 U.S. 372 (2007) . . . . . . . . . . . . i
Sheehan v. City & Cnty of S.F., 135 S. Ct. 1765
(2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Sherrod v. Berry, 856 F.2d 802 (7th Cir. 1988)

. . 20

Smith v. City of Hemet, 394 F.3d 689
(9th Cir. 2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Tennessee v. Garner, 471 U.S. 1 (1985) . . . . . . . . . . i
Terry v. Ohio, 392 U.S. 1 (1968)

............... i

Ting v. United States, 927 F.2d 1504
(9th Cir. 1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
United States v. James, 169 F.3d 1210
(9th Cir. 1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Vos v. City of Newport Beach, 892 F.3d 1024
(9th Cir. 2018) . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Wallace v. Mulholland, 957 F.2d 333
(7th Cir. 1992) . . . . . . . . . . . . . . . . . . . . . . . . . . 20-21
Witt v. West Virginia State Police, Troop 2,
633 F.3d 272 (4th Cir. 2011) . . . . . . . . . . . . . . . . . 17

xii
OTHER AUTHORITIES
Eighth Circuit Model Jury Instruction No. 4.40

. . . ii

Ninth Circuit Model Jury Instruction No. 9.25 . . ii, 15
Third Circuit Model Jury Instruction No. 4.9 . . . . ii
Doris A. Fuller, H. Richard Lamb, M.D.,
Michael Biasotti and John Snook,
Overlooked In the Undercounted: The
Role of Mental Illness in Fatal Law
Enforcement Encounters . . . . . . . . . . . . . . . . . . . . 22
E. Fuller Torrey, M.D., Sheriff Aaron
D. Kennard (ret.), M.PA., Donald F.
Eslinger, Michael C. Biasotti, Doris
Fuller, Justifiable Homicides by Law
Enforcement Officers: What is the
Role of Mental Illness? . . . . . . . . . . . . . . . . . . . . . 22

-1PETITION FOR WRIT OF CERTIORARI
Petitioners City of Bakersfield and Police Officer
Aaron Stringer respectfully petition for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Ninth Circuit in this case.
OPINION BELOW
The Ninth Circuit’s memorandum opinion at
issue in this petition appears at 944 F.3d 1070 (9th Cir.
2019) and in Petitioners’ Appendix (“Appendix”) at
page 1a.
The district court’s order on the subject motion
in limine appears at 2016 U.S. Dist. Lexis 139398
(E.D. CA Oct. 6, 2016) in the Appendix at page 26a.
BASIS FOR JURISDICTION IN THIS COURT
The Ninth Circuit Opinion was filed on
December 16, 2019 (Appendix at p. App. 1). This
Petition is timely within 90 days of that date. This
Court has jurisdiction to review the Ninth Circuit’s
December 16, 2019 decision on writ of certiorari under
under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS AT ISSUE
Respondents brought the underlying action
under 42 U.S.C. § 1983, which states:

-2Every person who, under color of any
statute, ordinance, regulation, custom, or
usage, of any State or Territory or the
District of Columbia, subjects, or causes
to be subjected, any citizen of the United
States or other person within the
jurisdiction thereof to the deprivation of
any rights, privileges, or immunities
secured by the Constitution and laws,
shall be liable to the party injured in an
action at law, suit in equity, or other
proper proceeding for redress, except that
in any action brought against a judicial
officer for an act or omission taken in
such officer’s judicial capacity, injunctive
relief shall not be granted unless a
declaratory decree was violated or
declaratory relief was unavailable. For
the purposes of this section, any Act of
Congress applicable exclusively to the
District of Columbia shall be considered
to be a statute of the District of
Columbia.
Respondent alleges petitioners violated her
rights secured by the United States Constitution’s
Fourth Amendment, which provides:
The right of the people to be secure in
their persons, houses, papers, and effects,
against unreasonable searches and
seizures, shall not be violated, and no
Warrants shall issue, but upon probable

-3cause, supported by Oath or affirmation,
and particularly describing the place to
be searched, and the persons or things to
be seized.
STATEMENT OF THE CASE
A.

INTRODUCTION

The issue in this case is whether it is
appropriate to consider evidence which was completely
unknown to a police officer and/or his police
department in analyzing whether an officer’s use of
force was unreasonable under the Fourth Amendment
and/or negligent.
In defining the test for whether the use of force
was “objectively reasonable”, this Court has made it
clear that the relevant inquiry is whether the use of
force, regardless of whether it is deadly or non-deadly,
is “objectively reasonable” based on the facts and
circumstances confronting them, without regard to
their underlying intent or motivation and must be
judged from the perspective of a reasonable officer on
the scene, rather than with the 20/20 vision of
hindsight.
In flagrant disregard of the parameters this
Court established in Graham v. Connor and its
progeny, the Ninth Circuit has now ruled that a
plaintiff can introduce evidence of behavior from other
prior occasions, about which the involved officer knew
nothing, to show that the police officer knew or should

-4have known that the involved individual was mentally
ill.
This decision is entirely incompatible with the
previous decisions of this Court and even with
previous decisions in both the Ninth Circuit and others
which hold that information that is not known to the
involved officer is not relevant to this analysis.
The Ninth Circuit has been previously
admonished by this Court in its overly broad analysis
when it comes to the issue of whether a police officer is
entitled to qualified immunity. See e.g. Sheehan v.
City & Cnty of S.F., 135 S. Ct. 1765 (2015); Mullenix v.
Luna, 136 S. Ct. 305 (2015).
The Ninth Circuit’s decision is this case is just
a further effort to dilute an officer’s ability to defend
himself in these Fourth Amendment cases.
The Court should grant certiorari to re-examine
the Ninth Circuit’s decision and to limit the scope of
evidence that can be considered to that which was
originally envisioned by the framework this Court set
forth in Graham v. Connor. The relevant inquiry is
what a reasonable officer would do based on the facts
and circumstances confronting him or her at the scene
and should not be expanded to include information
which was completely unknown to him or her.

-5B.

CONFRONTED WITH A MAN WHO WAS
TRYING TO KILL HIM OR CAUSE HIM
GREAT BODILY INJURY, OFFICER
AARON STRINGER HAD NO CHOICE
BUT TO USE DEADLY FORCE TO
PROTECT HIMSELF AND MEMBERS OF
THE PUBLIC

On August 6, 2014, Elsa Torres went to get gas
at a TMP gas station located on Brundage Lane in
Bakersfield, California. Ms. Torres’s nephew, her two
children, her little brother, and her mother were with
her. [Ninth Circuit Opinion, Appendix at pp. 4a-6a.]
When Ms. Torres arrived, she asked her oldest
son to go pay for the gas and she then began to put the
gas pump into the gas tank of her car. A man, later
identified as Michael Dozer, approached Ms. Torres,
removed the gas pump from her gas tank, and sprayed
gas on both Ms. Torres and on himself. Mr. Dozer
proceeded to use a lighter to ignite the gasoline.
[Ninth Circuit Opinion, Appendix at pp. 4a-6a.]
Ms. Torres immediately got in her car and fled
to an area where she could safely call 911. She told
the operator that there was a man trying to burn
them. [ Ninth Circuit Opinion, Appendix at pp. 5a-6a.]
At approximately 12:30 p.m., Bakersfield Police
Officer Aaron Stringer heard the dispatch that a
subject at a TMP gas station had poured gasoline on a
woman and tried to light her on fire. The dispatch also
indicated that there were children in the car. A second

-6dispatch indicated that the woman had been lit on fire.
[Ninth Circuit Opinion, Appendix at pp. 5a-6a.]
Officer Stringer activated his siren and lights
and proceeded to the gas station as quickly as he
could. Officer Stringer was wearing a Bakersfield
Police uniform. His shirt had an embroidered badge
on the front, said “Police Officer” and Officer Stringer’s
name on the right side and had large gold letters
saying “POLICE” on the back. [Ninth Circuit Opinion,
Appendix at pp. 5a-6a; Supplemental Excerpt of
Record filed in the United States Court of Appeals for
the Ninth Circuit (“SER”) p. 66; Reporter’s Transcript
of Proceedings filed in the United States Court of
Appeals for the Ninth Circuit (“RT”) Vol. I, 285:15-21;
SER p. 107; RT Vol. II, p. 37:5-13.]
Upon his arrival, Officer Stringer was flagged
down by a frantic witness, ultimately identified as
Angel Mora, who was saying that a woman had been
set on fire. [SER p. 66; RT Vol. I, pp. 225:10-14, 226:26, 277:3-20, 280:2-19.] At that point, Elsa Torres and
her young son came over to where Officer Stringer
was. Ms. Torres was hysterical and crying. Ms.
Torres told Officer Stringer that Mr. Dozer had tried
to light her on fire. Ms. Torres and Mr. Mora urgently
pointed at Mr. Dozer as the individual who was
responsible for pouring gas on Ms. Torres and for
lighting the fire. [Ninth Circuit Opinion, Appendix pp.
5a-6a.]
Given the information Officer Stringer had been
provided, Officer Stringer proceeded toward the area

-7where Mr. Dozer was to investigate what had
occurred. Officer Stringer felt that Mr. Dozer was still
a threat because there were people and a business in
the near vicinity. [Ninth Circuit Opinion, Appendix at
pp. 5a-7a; SER, p. 66; RT Vol. I, pp. 233:19-234:7,
234:10-14, 235:1-5, 235:6-9, 277:3-20; SER p. 107, RT
Vol. II, pp. 19:1-13, 20:20-21:7.]
Officer Stringer began to walk toward the area
where Mr. Dozer was. When Officer Stringer was
within approximately 20 feet of where Mr. Dozer was,
he stopped and that is when Mr. Dozer began to
approach Officer Stringer. Officer Stringer had no
intention of using force at that time and had no
weapon in his hand when he initially proceeded toward
Mr. Dozer. Officer Stringer just wanted to talk to Mr.
Dozer. [Ninth Circuit Opinion, Appendix at pp. 5a-7a;
SER, pp. 66, 107; RT Vol. I, pp. 276:5-12, 275:25276:12; RT Vol. II, pp. 22:23-23:6, 35:3-7.]
Officer Stringer could see that Mr. Dozer was
very agitated, pacing, and appeared to be under the
influence of a narcotic. Mr. Dozer said to Officer
Stringer , “You want to do this. Let’s go.” In response,
Officer Stringer said “No. Let’s not do this. I just
want to talk to you.” Mr. Dozer appeared very angry
and made it obvious to Officer Stringer that Mr. Dozer
intended to challenge him. [Ninth Circuit Opinion,
Appendix at pp. 5a-7a.]
Mr. Dozer proceeded to pick up a u-shaped bike
lock which had a metal handle and rapidly advanced
toward Officer Stringer. Mr. Dozer charged at Officer

-8Stringer with the bike lock over his head and in a
manner which demonstrated an intent to harm or kill
Officer Stringer. [Ninth Circuit Opinion, Appendix at
pp. 6a-9a; SER pp. 66, 107; RT Vol. I, pp. 254:12-16,
288:10-15; RT Vol. II, pp. 2:44:19-21, 44:25-45:45,
46:16-19, 187:18-21, 189:3-19, 199:2-4, 295:16-22.]
Officer Stringer backed up and told Mr. Dozer to
“stop” and to “put it down.” However, Mr. Dozer
continued to advance toward Officer Stringer. Officer
Stringer continued his efforts to back up but Mr. Dozer
was advancing faster than Officer Stringer could back
up. [Ninth Circuit Opinion, Appendix at pp. 6a-9a;
SER pp. 66, 107; RT Vol. I, pp. 276:13-22, 287:12-20;
RT Vol. II, pp. 60:1-6, 62:1-9, 193:21-22.]
At that point, when Mr. Dozer was extremely
close, Officer Stringer had no choice but to discharge
his firearm one time because Mr. Dozer would not stop
and he was attempting to kill or inflict serious bodily
injury on Officer Stringer. [SER p. 66, 107; RT Vol. I,
pp. 254:21-22, 276:16-22, 285:22-286:1; SER p. 107, RT
Vol. II, pp. 23:16-24:1, 24:9-12, 27:17-20, 35:8-11;
193:23-25.]
Because of how quickly Mr. Dozer was moving
toward Officer Stringer and how quickly everything
transpired, there was no opportunity to use any lesser
force such as a taser, a baton, or pepperspray, all of
which had a high likelihood of being ineffective at
stopping the immediate and imminent threat that Mr.
Dozer posed to Officer Stringer’s life. [Ninth Circuit
Opinion, Appendix at pp. 6a-9a.]

-9Mr. Dozer was transported to the hospital but
died from his wound.
C.

THE DISTRICT COURT CORRECTLY
PRECLUDED THE DECEDENT’S
MOTHER FROM TESTIFYING ABOUT
HOW MR. DOZER HAD BEHAVED ON
OTHER OCCASIONS, THOUGH THERE
WAS A PLETHORA OF EVIDENCE FROM
POLICE PROCEDURES EXPERTS ABOUT
THE SIGNS OF MENTAL ILLNESS AND
WHAT A WELL TRAINED POLICE
OFFICER SHOULD DO

The Decedent’s mother, Plaintiff Leslie Laray
Crawford, sued the City of Bakersfield and Bakersfield
Police Officer Aaron Stringer alleging the following
claims for relief:
1.

Violation of Civil Rights (42 U.S.C. §
1983) (Based on Unreasonable Use of
Deadly Force);

2.

Wrongful Death (Cal. Government Code
§§ 815.2(a), 820(a); Cal .Civil Code §
43)(Based on Battery);

3.

Wrongful Death (Cal. Government Code
§§ 815.2(a), 820(a))(Based on Negligence).

While not specifically set forth in the Complaint,
during the course of discovery, the Plaintiff testified
that the decedent suffered from schizophrenia and

-10would often talk to himself. The Plaintiff also testified
in her deposition that Mr. Dozer had received
counseling and been given various medications.
[Ninth Circuit Opinion, Appendix at pp. 10a-12a.]
In advance of trial, Defendants filed a Motion in
Limine seeking to Exclude Any Reference to Decedent
Michael Dozer Being Mentally Ill because the Plaintiff
did not designate a medical expert who could testify
that Michael Dozer was allegedly schizophrenic and
the Plaintiff was not qualified to offer such testimony.
The Defendants argued that the evidence should be
excluded because: (1) whether or not Mr. Dozer was
schizophrenic was not information that Officer
Stringer had at the time of the incident; and (2) the
Plaintiff did not designate any expert to testify that
Mr. Dozer allegedly suffered from such condition and
the Plaintiff was not qualified on her own to testify
about it. [Ninth Circuit Opinion, Appendix at pp. 11a14a; Appellant’s Excerpt of Record filed in the United
States Court of Appeals for the Ninth Circuit (“ER”)
Vol. II, pp. 237-266.]
In ruling on the Defendants’ Supplemental
Motion, the Court rejected the Defendants’ first
argument finding that the issue of Mr. Dozer’s alleged
mental illness would be relevant to determining
whether the use of force was reasonable, even if Officer
Stringer did not know Mr. Dozer was so afflicted.
The Court then proceeded to analyze the issue
of whether the Plaintiff was competent to testify
regarding Mr. Dozer’s alleged mental illness. The

-11Court concluded in relevant part that:
“[L]ay witnesses have been held
incompetent to testify as to the existence
or treatment of physical illnesses” and
mental condition. Frisone v. United
States, 270 F.2d 401, 403 (9th Cir. 1959).
While a witness may testify to her own
observations and opinions that are
rationally based on the perception of the
witness, the existence or treatment of a
mental illness “falls clearly outside the
area of common knowledge and within
the area where expert testimony is
required.” Frisone, 270 F.2d at 403.
While the Plaintiff may present lay
witness testimony regarding factual
matters and opinions within her personal
knowledge regarding Decedent’s mental
condition, the issue is that Plaintiff is not
testifying as to her observations on the
date of the incident but as to her prior
knowledge of Defendant’s mental
condition....Although Plaintiff may
present expert testimony in the liability
phase of trial regarding indicators of
mental illness and the training officers
receive, Plaintiff’s testimony regarding
her observations of Decedent on other
occasions is not relevant to the issue of
whether Defendant Stringer should have
known that Decedent’s behavior could

-12have been caused by mental illness.
[United States District Court, Eastern
District of California’s Order Re
Defendants’ Motions in Limine No. 1 and
9, Appendix at pp. 44a-45a.]
Despite the District Court’s decision to preclude
the Plaintiff from testifying about her observations of
Michael Dozer on other occasions, the District Court
did permit the introduction of an abundant amount of
evidence identifying the indicators of mental illness
and the training police officers receive pertaining to
mentally ill people. [Ninth Circuit Opinion, Appendix
at pp. 9a-11a.]
This enabled Plaintiff’s counsel to argue in
closing statements that Officer Stringer knew or
should have known that Mr. Dozer was mentally ill.
[Ninth Circuit Opinion, Appendix at pp. 12a-13a; SER,
p. 183; RT Vol. III, pp. 26:6-29:11, 36:13-23, 39:24-40:5,
58:24-59:11.]
D.

THE NINTH CIRCUIT REVERSED THE
LOWER COURT’S DECISION

On December 16, 2019, the Ninth Circuit
reversed the District Court’s ruling on the Defendant’s
Motion In Limine finding that the District Court had
“abused its discretion” in excluding the Plaintiff’s
proposed testimony about Decedent Michael Dozer’s
behavior on other occasions because:

-13Crawford’s testimony regarding Dozer’s
past behavior and treatment was
relevant to whether he was in fact
mentally ill at the time. Evidence that
Dozer had previously behaved in ways
consistent with mental illness and had
been taken to mental health providers for
treatment, makes it more likely that he
continued to suffer from mental illness on
the day of the shooting. In turn, whether
Dozer was in fact mentally ill that day is
relevant to whether he would have
appeared to be mentally ill, and thus to
whether Stringer knew or should have
known that Dozer was mentally ill...
[Ninth Circuit Opinion, Appendix at pp.
19a-21a.]
REASONS THE PETITION SHOULD
BE GRANTED
A.

THE NINTH CIRCUIT’S DECISION IS IN
COMPLETE DISREGARD OF GRAHAM
V. CONNOR AND ITS PROGENY AND
IMPROPERLY EXPANDS THE SCOPE
OF EVIDENCE THAT SHOULD BE
CONSIDERED WHEN DETERMINING IF
THE USE OF FORCE BY A POLICE
OFFICER WAS EXCESSIVE OR EVEN
NEGLIGENT
The Ninth Circuit’s decision in this case is in

-14total disregard of long established precedent that sets
forth the framework upon which the use of force is to
be analyzed. Nothing contained in this framework
permits the introduction of evidence of prior incidents,
which the involved officer knew nothing about, to
demonstrate that the involved individual suffered from
mental illness.
There is a plethora of case authority which
defines how Fourth Amendment claims are to be
analyzed and none of them provide that it would be
appropriate to introduce evidence of prior incidents
when evaluating “whether the officers’ actions are
‘objectively reasonable’ in light of the facts and
circumstances confronting them, without regard
to their underlying intent or motivation” and from the
perspective of a reasonable officer on the scene,
rather than with the 20/20 vision of hindsight.
Graham v. Connor, 490 U.S. 386, 397 (U.S. 1989)
[emphasis added]; Smith v. City of Hemet, 394 F.3d
689, 701 (9th Cir. 2005).
The Ninth Circuit’s decision in this case is in
complete disregard of the Graham holding in that the
Ninth Circuit is expressly allowing evidence which
goes far afield from the situation the Officer was
confronted with and which exemplifies the type of
20/20 hindsight this Court has specifically and
repeatedly cautioned against.
In reaching its decision, the Ninth Circuit relied
on a single Ninth Circuit case from 1999 which did not
even involve the use of force by a police officer.

-15See United States v. James, 169 F.3d 1210, 1214-15 (9th
Cir. 1999) [holding that documents corroborating the
stories that the defendant claimed the decedent told
her about the decedent’s past acts of violence were
relevant to her self-defense argument].
By relying on this case, the Ninth Circuit is
suggesting that Mr. Dozer’s mother should have been
permitted to testify as to her observations of Mr. Dozer
on other occasions such that it would make it more
likely to a jury that Mr. Dozer suffered from some sort
of mental illness. However, the Ninth Circuit’s
analogy to the James case misses the mark in terms of
the analysis the jury is supposed to conduct in an
excessive force case. It makes sense that a criminal
defendant like in James would be permitted to testify
as to the horrifying information she knew about the
decedent’s past acts which played a part in her
decision to commit a violent act in self defense.
However, this is completely inapposite to the situation
presented in this case because Officer Stringer knew
nothing about Mr. Dozer’s past behavior and it clearly
did not play a part in Officer Stringer’s decision to use
force.
The Ninth Circuit’s Model Jury Instruction 9.25
specifically sets forth relevant factors the jury must
consider in analyzing the use of force. These factors
include but are not limited to: (1) the severity of the
crime; (2) whether the individual posed an immediate
threat to the safety of the officer or to others; (3)
whether the individual was actively resisting arrest or
attempting to evade arrest; (4) the type and amount of

-16force used; and (5) whether or not it should have been
apparent to the police officer that the individual
against whom he used force was emotionally
disturbed.
These factors all track the spirit and intent of
this Court’s holding in Graham v. Connor, supra.
However, the Ninth Circuit’s effort to now expand the
element dealing with whether the individual was
emotionally disturbed by allowing testimony of the
individual’s behavior on other occasions essentially
invites the jury to conduct a 20/20 hindsight analysis
and to consider this factor based on information which
was not available to the police officer at the time the
force was used.
This Court should grant certiorari to prevent
the Ninth Circuit from creating an avenue for Fourth
Amendment liability that was clearly not envisioned
by the analysis that this Court has defined through
Graham v. Connor, and its progeny.
B.

THE NINTH CIRCUIT HAS CREATED
AN IRRECONCILABLE STANDARD
WHEREIN A POLICE OFFICER CANNOT
INTRODUCE EVIDENCE HE WAS
UNAWARE OF TO JUSTIFY HIS USE OF
FORCE BUT THE PLAINTIFF CAN USE
SUCH INFORMATION TO SHOW THE
FORCE WAS UNREASONABLE

In addition to being in complete contravention
to Graham v. Connor and its progeny, the Ninth

-17Circuit’s decision creates a substantial conflict in
regard to the scope of admissible evidence in Fourth
Amendment cases.
The Ninth Circuit has long held that evidence
an officer had no knowledge of is not admissible in
determining whether the use of force was reasonable
under the Fourth Amendment. This includes evidence
of being emotionally disturbed/mentally ill and other
evidence such as being in a gang or being under the
influence of narcotics. See Ting v. United States, 927
F.2d 1504, 1508 (9th Cir. 1991) [holding that whether
a suspect was emotionally disturbed or mentally ill is
only relevant to a Graham analysis if the officers on
scene knew that to be the case); Drummond v. City of
Anaheim, 343 F.3d 1052, 1058 (9th Cir. 2003); Santos
v. Gates, 287 F.3d 846, 851 (9th Cir. 2002); Rubalcava
v. City of Los Angeles, 64 F.3d 1323, 1328 (9th Cir.
1995); Palmquist v. Selvik, 111 F.3d 1332, 1339 (7th
Cir. 1997) [“[W]hen considering a charge of excessive
force under the Fourth Amendment, evidence outside
the time frame of the [incident] is irrelevant and
prejudicial.”]; Witt v. West Virginia State Police, Troop
2, 633 F.3d 272, 275 n. * (4th Cir. 2011) [noting that the
plaintiff’s “criminal history and possession of illegal
narcotics...are irrelevant to the excessive force analysis
because, as the troopers themselves acknowledge, they
‘did not know’ these facts ‘at the time’ they allegedly
beat [the plaintiff]”– even though the facts of the
incident were disputed].
Under this authority, a police officer is not
permitted to introduce evidence such as gang

-18affiliation or drug use where he had no knowledge of
such information prior to the use of force. Certainly,
evidence that an individual had a violent history or
was in a violent gang would corroborate a police
officer’s version of events, yet the Ninth Circuit has
repeatedly refused to introduce such evidence because
it would be inappropriate in the framework set forth in
Graham v. Connor.
In complete contradiction to this rationale, the
Ninth Circuit’s decision in this case permits a plaintiff
to introduce evidence of a plaintiff or decedent’s
conduct on other occasions despite the fact that the
involved officer had no knowledge of such conduct to
support a claim of mental illness.
The Ninth Circuit’s decision in this case cannot be
reconciled with the holdings that prevent a police officer
from introducing evidence of gang affiliation or drug use.
While the Ninth Circuit claims to disavow a
“two track” approach when it comes to excessive force
analysis in regard to ordinary use of force cases and
those involving someone with mental illness, see e.g.,
Vos v. City of Newport Beach, 892 F.3d 1024, 1030 (9th
Cir. 2018); Bryan v. MacPherson, 630 F.3d 805 (9th Cir.
2010), the Ninth Circuit’s decision in this case is
exactly that. The Ninth Circuit has now created a
separate analysis for those cases involving an
individual who is mentally ill by allowing lay
witnesses to testify about his or her observations of an
individual on other previous occasions even though the
involved officer would not have had any knowledge of

-19such incidents. This is an exception that is being
made for mentally ill plaintiffs or decedents which is
not made for any other plaintiff and which is certainly
not being made for any police officer who would
undoubtedly benefit from a jury learning that a
particular individual was in a gang or was under the
influence of narcotics.
Given the Ninth Circuit’s extensive history of
attempting to avoid giving a police officer the benefit
of qualified immunity, it is difficult to view this latest
decision by the Ninth Circuit as anything other than
a further effort to make it more difficult for police
officers in these Fourth Amendment cases.
There should be no legal distinction between the
rules prohibiting the introduction of evidence such as
gang affiliation or drug consumption which was not
known to the involved police officer and the
admission of evidence of being mentally disturbed on
other occasions which the officer knew nothing about.
Yet, that is exactly what the Ninth Circuit has done in
contravention to case authority within the Ninth
Circuit and in other circuits. This Court should grant
certiorari to correct the conflict that the Ninth
Circuit’s decision has created.
C.

THERE IS A CONFLICT AMONGST
CIRCUITS AS TO THE ADMISSIBILITY
OF EVIDENCE PERTAINING TO AN
INDIVIDUAL’S MENTAL HEALTH
Review of the Ninth Circuit’s decision is also

-20necessary to resolve a split among the circuit courts on
the admissibility of “pre-incident” events wherein an
individual demonstrated signs of mental illness. This
Court has never addressed this issue.
The Ninth Circuit’s decision in this case, which
was not based on supportive legal precedent, allows
the introduction of evidence that an individual
demonstrated signs of mental illness on other
occasions and so the police officer knew or should have
known that he was mentally ill at the time of this
encounter.
By contrast, the Seventh Circuit has repeatedly
rejected such a holding finding that evidence outside
the time frame of the shooting is irrelevant and
prejudicial.
In Wallace v. Mulholland, 957 F.2d 333, 336 (7th
Cir. 1992), the Seventh Circuit specifically excluded
evidence of decedent’s mental health condition finding
that evidence about the general nature of a mental
condition was irrelevant and prejudicial and that the
subject of the case was the decedent’s actual behavior
on the date in question and the way the officers
responded to it.
The Wallace Court correctly
maintained this Court’s previous holdings when it
concluded that the issue was not how the individual
conducted himself on other occasions but how he
conducted himself on this occasion. See also Rascon v.
Hardiman, 803 F.2d 269 (7th Cir. 1986); Sherrod v.
Berry, 856 F.2d 802, 803 (7th Cir. 1988) [Evidence
outside the time frame of the shooting is irrelevant

-21and prejudicial].
At least one district court in the Second Circuit
has adopted similar holdings to those set forth in
Wallace. See e.g., Colter v. Reyes, 2017 U.S. Dist.
LEXIS 103617 (E.D. NY July 4, 2017) [Excluding
evidence of mental health condition since the involved
officer did not have any knowledge of such condition].
The Seventh Circuit and the district court in the
Second Circuit aligns itself with the framework that
this Court established in Graham v. Connor and its
progeny. That is, the relevant inquiry remains what
occurred at the time of the incident and should not be
based on information that was unavailable to the
involved police officer. The Ninth Circuit’s rule, by
contrast, runs afoul of this Court’s analytical
framework giving a plaintiff yet another advantage in
these Fourth Amendment cases.
Absent this Court’s intervention, the Ninth
Circuit’s decision in this case will continue to drive
decisions within the Ninth Circuit and expand the
breadth of evidence that a police officer has to confront
even when he had no knowledge of it before the
incident took place.
Review is necessary to resolve the split between
the Ninth Circuit and the Seventh Circuit and to
provide all circuits with this Court’s guidance and
direction on this issue.

-22D.

THIS QUESTION PRESENTED IN THIS
CASE IS RECURRING AND IMPORTANT

The issue of police encounters with individuals
who purport to suffer from mental illness is obviously
an issue that has been a “hot topic” as of late in regard
to a police officer’s use of force and will undoubtedly
arise again.
Police Officers regularly encounter individuals
who display symptoms of mental illness and are faced
with the question of whether to use force to defend
themselves and/or members of the public. A 2015
report from the Treatment Advocacy Center concluded
that one in four of all fatal police encounters involve
individuals with severe mental illness. Doris A.
Fuller, H. Richard Lamb, M.D., Michael Biasotti and
John Snook, Overlooked In the Undercounted: The Role
of Mental Illness in Fatal Law Enforcement Encounters
(available at http:www.treatmentadvocacycenter.org
/storage/documents/overlooked-in-theundercounted.pdf (last visited October 24, 2018).)
A 2013 joint report by the Treatment Advocacy
Center and the National Sheriffs’ Association
concluded that at least half of the people shot and
killed by police each year in the United States have
mental health problems. E. Fuller Torrey, M.D.,
Sheriff Aaron D. Kennard (ret.), M.PA., Donald F.
Eslinger, Michael C. Biasotti, Doris Fuller, Justifiable
Homicides by Law Enforcement Officers: What is the
Role of Mental Illness? (Available at
http:www.treatmentadvocacycenter.org/storage/docu

-23ment s/2013-justifiable-homicides.pdf (last visited
October 24, 2018).
This Court has confronted cases which involve
a police officer’s use of deadly force against individuals
with mental illness but they have all been in the
context of whether or not a police officer was entitled
to qualified immunity. See e.g., Kisela v. Hughes, 138
S.Ct. 1148 (2018); City & Cty. of S.F. v. Sheehan, 575
U.S. 600 (2015).
However, no prior holding by this Court has
addressed whether or not a jury should be presented
with evidence which was unknown to the responding
police officer, or even his police department, which
demonstrates that the individual was mentally ill and
as such, the use of force was unreasonable and/or the
police officer was negligent.
The Ninth Circuit’s holding in this case will
open a flood gate of evidence which circumvents this
Court’s very holding in Graham v. Connor and its
progeny. That is, as it stands based on the Ninth
Circuit’s decision, a plaintiff can introduce evidence
which the police officer knew nothing about to show
that the individual involved was mentally ill and that
the use of force by the officer was therefore
unreasonable which is completely contrary to the
analysis that is supposed to be done.
Given the significant number of cases involving
police officers and mentally ill individuals, these types
of issues are going to come up in circuits across the

-24Country and it is incumbent upon this Court to issue
a clear decision to guide circuits and police officers.
CONCLUSION
The Ninth Circuit continues to defy decades of
clearly established jurisprudence as set forth in
Graham v. Connor and continues to make it more and
more difficult for police officers to do their jobs.
Accordingly, Petitioners City of Bakersfield and Officer
Aaron Stringer ask the Court to grant their petition for
writ of certiorari of the Ninth Circuit’s decision in this
case.
Respectfully submitted,
Michael G. Marderosian
Heather S. Cohen
MARDEROSIAN & COHEN
1260 Fulton Street
Fresno, CA 93721
(559) 441-7991
Attorneys for Petitioners
City of Bakersfield and
Aaron Stringer

